 JOINT PLANNING AND DEVELOPMENT
OFFICE: ACTIONS NEEDED TO REDUCE
RISKS WITH THE NEXT GENERATION AIR
     TRANSPORTATION SYSTEM
       Federal Aviation Administration

        Report Number: AV-2007-031
       Date Issued: February 12, 2007
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Joint Planning and Development                                        Date:    February 12, 2007
           Office: Actions Needed To Reduce Risks With the
           Next Generation Air Transportation System
           Federal Aviation Administration
           Report Number AV-2007-031
  From:                                                                               Reply to
           David A. Dobbs                                                             Attn. of:   JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    FAA Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) Joint Planning and Development Office (JPDO). The
           purposes of the JPDO are to manage work related to the Next Generation Air
           Transportation System (NGATS), coordinate Federal research efforts, and create a
           plan to transition from FAA’s existing National Airspace System into the next
           generation system.

           At the request of the Chairman and Ranking Member of the House Aviation
           Subcommittee, we examined progress to date with the JPDO. As agreed with the
           requestors, our objectives were (1) assessing the JPDO’s progress to date in
           aligning diverse agency budgets and (2) determining actions that will help the
           JPDO move from planning to implementation. Also, the Chairman of the House
           Science Committee requested that we keep his office apprised of the results of our
           work on the JPDO.

           We have testified on progress to date with the JPDO before the House and Senate
           on several occasions and outlined actions needed to transition from planning to
           implementation.1 This report summarizes our results and formally transmits our
           recommendations for improving coordination and reducing risk with the next

           1
               OIG Testimony CC-2006-032, “Observations on the Progress and Actions Needed To Address the Next Generation
               Air Transportation System,” March 29, 2006; OIG Testimony CC-2006-031, “Observations on Current and Future
               Efforts To Modernize the National Airspace System,” June 21, 2006; OIG Testimony CC-2006-065, “Perspectives
               on the Progress and Actions Needed To Address the Next Generation Air Transportation System,” July 25, 2006.
               OIG reports and testimonies can be found on our website: www.oig.dot.gov.
generation system—one of the most technologically complex undertakings FAA
has embarked upon in years. Exhibits A through E provide details on: (A)
research efforts needed for NGATS; (B) potential agency contributions for
specific missions; (C) NGATS Integrated Product Teams; (D) key modernization
platforms that will aid in moving forward with NGATS; and (E) our report
objectives, scope, and methodology.


BACKGROUND
The JPDO was mandated by Congress in Vision 100—Century of Aviation
Reauthorization Act2—to develop a vision for NGATS in the 2025 timeframe and
coordinate diverse agency research efforts. This office was established within
FAA to coordinate research efforts underway at the National Aeronautics and
Space Administration (NASA), Department of Commerce, Department of Defense
(DOD), and Department of Homeland Security (DHS).

There are a number of compelling reasons for moving toward NGATS. The
current air transportation system has served the Nation well, but FAA reports that
the current system (or business as usual) will not be sufficient to meet the
anticipated demand for air travel or changes in the industry. Last year, over
700 million passengers used the system, and this number is forecasted to grow to
over 1 billion by 2015. Figure 1 illustrates the expected increases in passenger
traffic for both mainline and regional airlines.

                                           Figure 1. U.S. Commercial Air Carriers System Enplanements
                                                             Fiscal Years 2005-2017
                                    1200
                                    1100          Mainline     Regional
                                    1000
                                    900
           Millions of Passengers




                                    800
                                    700
                                    600
                                    500
                                    400
                                    300
                                    200
                                    100
                                      0
                                           2005         2007         2009        2011   2013   2015     2017



          Source: FAA Forecast 2005 - 2017



2
    Public Law No. 108-176 (2003).


                                                                            ii
As the JPDO points out in various planning documents, NGATS is more than just
increasing capacity; enhancements are also envisioned in the areas of security,
safety, and impact reduction for aircraft noise and emissions. For example, DHS
and the JPDO are working to develop new security measures for the National
Airspace System as well as new screening technology to mitigate potential threats
to the air transportation system.


RESULTS IN BRIEF
The JPDO has established ambitious, much needed goals to create a system that
will handle three times more air traffic and reduce FAA operating costs. The
JPDO also expects a shift from FAA’s current ground-based automation system to
an aircraft-based, net-centric3 system that will significantly enhance controller
productivity through automation.

We found that the JPDO’s congressionally mandated mission to leverage
resources at other agencies is critical given that FAA conducts little long-term air
traffic management research and the fact that most of the Agency’s current
$2.5 billion capital account goes toward keeping things running (i.e., sustainment).
Moreover, only about 55 percent of FAA’s capital account goes toward acquiring
air traffic control systems, the remaining funds go to personnel, mission support,
and facilities. We have identified a number of issues that will enhance
coordination between JPDO participants and reduce risk with developing and
transitioning to the next generation system.


Progress Is Being Made in Coordinating Diverse Research Initiatives
but Not in Alignment of Agency Plans and Budgets to Date
Central to the JPDO’s mission is the alignment of ongoing research at other
Federal agencies. This is a complex task because each agency conducts it own
research and development efforts to support its individual missions. To coordinate
these interagency efforts, the JPDO has established eight Integrated Product
Teams (IPT) with representatives from FAA, participating agencies, and the
private sector. While there are significant opportunities to leverage ongoing
research, there is also considerable potential for duplication of effort.

We reviewed three of these IPTs—weather, shared situational awareness, and air
traffic management—and found that there was considerable coordination but little
or no alignment of research and development (R&D) budgets and plans. Further,

3
    An airborne system that will use internet protocols to transfer data over an airborne/ground data network in which
    each aircraft will function as a node that will receive and pass on common information to other aircraft and the
    ground.


                                                          iii
individual IPT team leaders have no authority to commit their parent agency’s
resources. The difficult part of adjusting and redirecting various agencies’
research efforts to meet NGATS requirements lies ahead over the next year. FAA
is taking important steps in working with the Office of Management and Budget
(OMB) to develop an integrated budget document for the JPDO as well as a list of
specific programs at other agencies that support the development of NGATS.


NASA’s Role in NGATS Is Critical and Will Require More Attention
NASA’s role in this
coordination and leveraging      Range of Actions To Reduce Risk With NGATS
will    require     sustained      and Shift From Planning to Implementation
management attention and       •  Establish  cost estimates, quantify expected
                                  benefits, and develop a roadmap for industry.
focus. This is important
because NASA is expected • Develop and implement mechanisms for alignment
                                  between agencies.
to develop a wide range of
                               • Develop approaches for risk management and
capacity,     safety,     and     systems integration.
environmental research to • Conduct sufficient human factors research to
support NGATS.           This     support anticipated changes for controllers and
includes, among other             pilots.
things, developing concepts
and elements of new automation systems to help enhance capacity, boost
controller productivity, system throughput (the number of aircraft that use the
system during a period of time), and shift greater responsibility to the cockpit.

Historically, NASA has funded and managed the majority of long-term air traffic
management research, including the development for prototypes that were pilot-
tested at FAA air traffic control facilities. In the mid 1990s, for example, NASA
developed new automated controller tools for sequencing aircraft for arrival that
were part of the successful Free Flight Phase 1 program.

However, NASA is rethinking its overall aeronautics research portfolio and is
spending less. Senior NASA officials have told us that NASA no longer plans to
develop prototypes as it has in the past and that research would be restricted to
“fundamental research.”4 There are concerns that NASA’s restructuring efforts
will create gaps in both funding and technology readiness that will affect
milestones for NGATS. The extent of these gaps and impact on NGATS
milestones will not become clear until the JPDO has developed a more definitive

4
    NASA officials define “fundamental research” as continued long-term, scientific study in areas such as physics,
    chemistry, materials, experimental techniques, and computational techniques that lead to a furthering of
    understanding of underlying principles that form the foundation of the core aeronautics disciplines as well as
    research that integrates the knowledge gained in these core areas to significantly enhance capabilities, tools, and
    technologies at the disciplinary (e.g., aerodynamics, combustion, and trajectory prediction uncertainty) and
    multidisciplinary (e.g., airframe design, engine design, and airspace modeling and simulation) levels.


                                                          iv
concept of operations and a mature enterprise architecture—or technical
blueprint—for NGATS.

FAA and NASA need to reach agreement on what will be expected from NASA to
support NGATS initiatives. Given the important role that NASA is expected to
play, Congress and aviation stakeholders need to know sooner rather than later if
FAA will have to assume a larger than expected role to complete development of
NGATS initiatives. As a contingency, FAA should begin assessing alternatives
and develop plans for how this research and development will be conducted,
managed, and paid for.


Actions Needed To Reduce Risk With Transitioning to NGATS
Moving to NGATS is important to meet the demand for air travel, change the way
FAA provides services, and help control operating costs. However, it is also an
extraordinarily complex and high-risk effort given the potential multibillion-dollar
investments by FAA and airspace users. Also, the transition to NGATS will
involve important policy questions, such as how to spur aircraft equipage and how
to handle a mix of aircraft with different capabilities in congested airspace. We
have identified a range of actions that will help FAA and the JPDO transition from
planning to implementation.


Finalizing Cost Estimates, Quantifying Expected Benefits, and Developing
a Roadmap for Industry
The JPDO’s March 2006 progress report5 to Congress was silent on funding
requirements and complex transition issues. Moving to NGATS will require
significant investments from FAA (new ground systems) and airspace users (new
avionics).

We have reviewed some preliminary estimates developed by the Air Traffic
Organization (ATO) and the working group from FAA’s Research, Engineering
and Development Advisory Committee (REDAC), but those estimates have not
been finalized or approved by senior FAA management. There are considerable
unknowns, and costs depend on such factors as performance requirements for new
automation, weather initiatives, and the extent to which FAA intends to
consolidate facilities.

An important theme from JPDO workshops, conducted with the aviation industry
to help develop cost estimates, is the need for FAA to clearly define the expected
benefits from NGATS initiatives, particularly for projects that require airspace

5
    NGATS Report, “2005 Progress Report to the Next Generation Integrated Plan,” March 2006.


                                                        v
users to install new avionics. At the April 2006 workshop, industry participants
asked FAA for a “service roadmap” that (1) specifies required equipage in specific
time increments, (2) bundles capabilities with clearly defined benefits and needed
investments, and (3) uses a 4-to 5-year equipage cycle that is coordinated with
aircraft maintenance schedules. This service roadmap does not yet exist. It will
be important for FAA to provide industry with this information.

We are recommending that the JPDO develop and report the costs of NGATS to
Congress and stakeholders along three vectors—development efforts, adjustments
to existing programs, and NGATS implementation. This will give decision
makers a clearer understanding of NGATS costs and their dimensions.


Developing and Implementing Mechanisms for Alignment Between
Agencies To Help Develop NGATS as Mandated by Law
There is considerable ongoing coordination among JPDO participating agencies
but little alignment of budgets and plans. JPDO progress reports do not provide
specific details on participating agencies’ research projects that the JPDO expects
to leverage. As we reported in congressional testimonies, the JPDO needs
mechanisms to help it align diverse agency efforts over the long term. The JPDO
recognizes this and is working with OMB to, among other things, develop an
integrated budget document.

We are recommending that the JPDO include in its periodic reports to Congress a
table of specific research projects with budget data for both FAA developmental
efforts and other agencies it is leveraging and report on how that ongoing research
is supporting the JPDO. This will help decision makers address whether FAA is
leveraging the right research and taking full advantage of ongoing research being
performed by other agencies.


Developing Approaches for Risk Management and Systems Integration
The transition to NGATS is a high-risk effort for both the Government and
industry potentially involving billions of dollars, and the JPDO and FAA need to
articulate how problems that affected past modernization efforts will be mitigated
and what specific skill sets will be required. This is important because the
transition to NGATS will require synchronized investments over several years
between FAA (new ground systems) and airspace users (new avionics).

FAA is planning a number of demonstration projects for various NGATS
initiatives, which represent important opportunities to reduce risk. Given past
problems with certifying new systems as safe and the importance of policies and
procedures, we are recommending that demonstration projects (1) establish a path


                                        vi
for certifying new systems and (2) identify changes to policies and procedures that
will be needed to get benefits.


Conducting Sufficient Human Factors Research To Support Anticipated
Changes
The JPDO is planning to make fundamental changes in how the system operates
(for both controllers and pilots) so it can accommodate three times more aircraft in
the system. Our work shows that focused human factors work will be needed to
ensure that expected changes in roles and responsibilities of pilots and controllers
can safely be accommodated. Key issues include what can reasonably be expected
from new automation systems and how more responsibility can be shifted to the
cockpit. We are recommending that the JPDO conduct sufficient human factors
analyses and studies to ensure that the changes envisioned for NGATS can be
safely accomplished.


SUMMARY OF RECOMMENDATIONS
Our recommendations focus on actions FAA and the JPDO need to take to
establish cost estimates, quantify benefits, align research between agencies,
develop a service roadmap, reduce risk with next generation initiatives, and to
speed the introduction of new capabilities into the National Airspace System. A
complete set of our recommendations begin on page 17.


SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
On December 15, 2006, we provided FAA with a draft copy of this report. On
February 9, 2007, FAA gave us its formal response, which is included in its
entirety in the Appendix. In its response, FAA fully concurred with all but one of
our recommendations.

FAA partially concurred with our recommendation to use technology readiness
levels in assessing the technical maturity of research and development projects
received from partner Agencies. FAA points out that the use of technology
readiness levels alone does not facilitate successful technology transfer. We agree
and point out in our report that successful transition of technology also requires
close cooperation between researchers and users of existing systems. The planned
actions that FAA highlights in its response, such as further developing the concept
of operations and the NGATS R&D plan and using FAA’s Operational Evolution
Plan to track technology maturity, are responsive to the intent of our


                                        vii
recommendation. Therefore, we consider FAA’s planned actions responsive to all
nine of our recommendations, subject to follow-up requirements in Department of
Transportation Order 8000.1C.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call Robin Hunt,
Acting Assistant Inspector General for Aviation and Special Program Audits, at
(415) 744-0420 or Matt Hampton, Program Director, at (202) 366-1987.




                                       #



cc:   FAA Deputy Administrator
      FAA Chief of Staff
      JPDO Director
      Anthony Williams, ABU-100
      Martin Gertel, M-1




                                      viii
                      TABLE OF CONTENTS



FINDINGS _________________________________________________ 1
  The JPDO’s Mission Is Critical Because Most of FAA’s
  Capital Investment Focuses on Sustainment, and FAA
  Conducts Little Air Traffic Management Research........................... 1
  FAA Has Historically Relied on NASA for Long-Term
  Air Traffic Management Research ...................................................... 4
  Progress Is Being Made in Coordinating Diverse
  Agency Efforts but Considerable Work Remains ............................. 5
  A Range of Actions Are Critical for the JPDO To Make
  Progress in Both the Short and Long Term and Make
  the Transition From Planning to Implementation ............................. 8
     Finalizing Cost Estimates, Quantifying Expected
     Benefits, and Developing a Roadmap for Industry............................ 8
     Establishing Clear Lines of Responsibility and
     Accountability Between JPDO Plans and ATO Efforts
     To Better Facilitate the Introduction of New Capabilities
     Into the National Airspace System .................................................. 10
     Developing and Implementing Mechanisms for
     Alignment Between Agencies.......................................................... 11
     Developing Approaches for Risk Management and
     Systems Integration......................................................................... 12
     Clarifying Approaches for Industry Participation To
     Prevent Potential Conflict of Interest ............................................... 13
     Examining and Overcoming Barriers To Transforming
     the National Airspace System That Have Affected Past
     FAA Programs................................................................................. 14
     Developing a Strategy for Technology Transfer.............................. 15
     Conducting Sufficient Human Factors Research To
     Support Anticipated Changes.......................................................... 16

RECOMMENDATIONS ______________________________________ 17

Exhibit A. Key Research Efforts Needed for NGATS_____________ 20
Exhibit B. Potential Agency Contributions_____________________ 21

Exhibit C. Integrated Product Teams and their Lead
Agencies_________________________________________________ 22

Exhibit D. Key Platforms ___________________________________ 23

Exhibit E. Scope and Methodology ___________________________ 25

Appendix. Management Comments __________________________ 26
                                                                                 1




FINDINGS
The JPDO was mandated by Congress to develop a vision for NGATS in the 2025
timeframe and coordinate diverse agency research efforts. This office was
established within FAA; also participating are NASA and the Departments of
Commerce, Defense, and Homeland Security. The successful implementation of
NGATS will involve coordinated efforts by all participating agencies. Because of
the need to enhance capacity and the potential impact on FAA’s budget and
operations, our work thus far has focused primarily on the JPDO’s air traffic
management efforts that involve NASA, DOD, and Commerce.

There are a number of compelling reasons for moving toward NGATS. The
current air transportation system has served the Nation well, but FAA reports that
the current system (or business as usual) will not be sufficient to meet the
anticipated demand for air travel. Last year, over 700 million passengers used the
system, and this number is forecasted to grow to over 1 billion by 2015.

The JPDO’s mission is critical given that FAA conducts little long-term air traffic
management research and the fact the most of the Agency’s current $2.5 billion
capital account goes toward sustainment and day-to-day operations. However, the
cost of NGATS remains uncertain and much work remains to refine costs; align
diverse agency budgets; and set expectations for airspace users with respect to
milestones, equipage, and anticipated benefits. We have identified a range of
actions that the JPDO needs to address to transition from planning to
implementation. These include the following:

   • Finalize cost estimates, quantify expected benefits, and develop a roadmap
     for industry;
   • Establish linkage between the plans developed by JPDO and the
     implementation priorities of the Air Traffic Organization by delineating
     lines of responsibility and accountability for both;
   • Develop and implement mechanisms for aligning resources between
     agencies; and
   • Develop approaches for risk management and systems integration.


The JPDO’s Mission Is Critical Because Most of FAA’s Capital
Investment Focuses on Sustainment, and FAA Conducts Little Air
Traffic Management Research
FAA’s capital account—or the Facilities and Equipment (F&E) account—is the
principal vehicle for modernizing the National Airspace System. It represents
about 18 percent of the Agency’s fiscal year (FY) 2007 budget request of


Findings
                                                                                  2


$13.7 billion. For FY 2007, FAA is requesting $2.5 billion for the F&E account,
which is $50 million less than last year’s appropriation. This is the fourth
consecutive year that funding requests for the capital account are below authorized
levels called for in Vision 100. As we have noted in previous reports and
testimonies, FAA’s increasing operating costs have crowded out funds for
modernization.

As illustrated in Figure 2, only about 55 percent of FAA’s FY 2007 F&E request
(or $1.4 billion) will actually go for acquiring air traffic control systems. The
remainder will be spent on personnel, mission support, and facilities.




  Source: FAA’s FY 2007 Budget Request



As we have noted in previous testimonies, the majority of FAA’s capital account
now goes for keeping things running (i.e., sustainment), not new initiatives. A
review of the top 10 projects by dollar amount in the FY 2007 budget request
shows that while some projects will form the platforms for future initiatives, the
bulk of funds are requested for projects that have been delayed for years and for
efforts to improve or maintain FAA facilities or replace existing radars.

Over the last several years, FAA has deferred or cancelled a number of projects as
funding for the capital account has remained essentially flat. This includes efforts


Findings
                                                                                                                       3


for a new air-to-ground communication system, controller-pilot data link
communications, and a new satellite-based precision landing system. FAA has
also postponed making decisions on projects like the billion-dollar Standard
Terminal Automation Replacement System.

Even though FAA lacks clarity about NGATS, it is requesting F&E funds for two
projects that are considered “building blocks” for the next generation system.
These are not new programs and have been under development or been funded in
previous budgets.

      • Automatic Dependent Surveillance-Broadcast (ADS-B)6 is a satellite-based
        technology that allows aircraft to broadcast their position to others. FAA is
        requesting $80 million in FY 2007 for this satellite-based technology. In
        prior budgets, ADS-B was funded under the Safe Flight 21 Initiative, which
        demonstrated the potential of ADS-B and cockpit displays in Alaska and
        the Ohio River Valley.

           FAA expects to award a service contract for the ADS-B ground
           infrastructure in 2007. However, a number of challenges must be
           addressed: conducting human factors work and determining how air and
           ground elements will be certified as safe. FAA may have to rely on a
           rulemaking initiative to help speed equipage. This illustrates why the JPDO
           must address complex policy issues as well as research as it moves forward
           with NGATS initiatives.

      • System Wide Information Management (SWIM) is a new information
        architecture that will allow airspace users to access securely and seamlessly
        a wide range of information on the status of the National Airspace System
        and weather conditions. It is analogous to an internet system for all
        airspace users. FAA is requesting $24 million for this program in FY 2007,
        which is scheduled to be reviewed by the Joint Resources Council in the
        spring of 2007.




6
    The first phase of ADS-B implementation, known as ADS-B out, is expected to replace many ground radars that
    currently provide aircraft surveillance with less costly ground-based transceivers. Aircraft would be equipped with
    ADS-B out, which broadcasts a signal to these transceivers. However, implementing ADS-B out is just the first step
    to achieving the larger benefits of ADS-B, which would be provided by ADS-B in. ADS-B in would allow aircraft to
    receive signals from ground-based transceivers or directly from other aircraft equipped with ADS-B. This could
    allow pilots to “see” nearby traffic and, consequently, transition some responsibility for maintaining safe separation
    from the air traffic controllers to the cockpit.


Findings
                                                                                                                 4


FAA Has Historically Relied on NASA for Long-Term Air Traffic
Management Research
Historically, FAA’s R&D efforts have focused on short-term research, with NASA
conducting the majority of long-term air traffic management research, including
automated controller tools and human factors work. NASA has requested
$724 million for FY 2007 on aeronautical R&D. The JPDO is looking to NASA
to develop automated aircraft metering and sequencing and dynamic airspace
reconfiguration. Table 1 illustrates NASA investments in aeronautics research in
FY 2005 and FY 2006 and the request for FY 2007.

              Table 1. NASA Funding for Aeronautics Research
                            (Dollars in Millions)
             NASA                    FY 2005                   FY 2006                    FY 2007
          Aeronautics              Operating Plan            Operating Plan                Budget
           Research                                                                      Submission
       Fundamental
                                           630                       571                      447
       Aeronautics
       Airspace Systems                    149                       174                      120
       Aviation Safety                     183                       148                      102
       Aeronautics Test
       Program                                0                         0                       55
        Total                              962                       893                      724
      Source: NASA FY 2007 Budget Request and FY 2006 September Operations Plan Update
      Note: It is difficult to compare prior year aeronautics R&D budgets because the recent restructuring has
      changed the way individual programs are portrayed in budget requests and planning documents.

As shown above, NASA will be spending less on aeronautical research than it has
in the past and is planning on restructuring its aeronautical research portfolio. In
discussing progress with the JPDO, NASA’s Associate Administrator for
Aeronautics told us that NASA no longer plans to develop prototypes and that
research would be restricted to “fundamental research.” This is in sharp contrast
to the support it gave FAA with the Free Flight Phase 1 program. Exhibit A
outlines several examples of required research.

An April 2006 draft REDAC report7 on financing the next generation air
transportation system raised concerns about NASA’s efforts to restructure its
aeronautic program and its potential impact on NGATS. The draft report stated
that NASA changes to its aeronautical research efforts will place uncertainty on
the ability of NASA to deliver development efforts at the same level of

7
    Federal Aviation Administration Research, Engineering and Development Advisory Committee draft report,
    “Financing the Next Generation Air Transportation System,” April 2006.


Findings
                                                                                                               5


technological maturity that it has in the past. As a result, FAA would have to
assume a larger burden and the associated costs to complete development and
bring new systems to fruition.


Progress Is Being Made in Coordinating Diverse Agency Efforts but
Considerable Work Remains
To align agency budgets and plans, Vision 100 requires the JPDO to coordinate
and oversee research that could play a role in NGATS. Central to the JPDO’s
mission—and making it an effective multi-agency vehicle—is alignment of
agency resources. This is a complex task, and the law does not give the JPDO
authority to redirect agency resources. Exhibit B provides information on
potential agency contributions to the JPDO and each agency’s area of expertise.

JPDO’s March 2006 progress report to Congress outlined various
accomplishments to date, including the establishment of multi-agency teams and
the NGATS institute (a mechanism for interfacing with the private sector).
However, the report did not provide details on specific ongoing research projects
at FAA or funding that the JPDO expects to leverage at other agencies. Without
this information, it is difficult to assess the JPDO’s progress with aligning budgets.

The majority of the JPDO’s work is
                                                              JPDO’s Integrated Product Teams
done through eight Integrated Product
                                                                  (With the Lead Agency)
Teams (IPT) that focus on eight
strategies, such as how to use weather                           •    Airports (FAA)
information to improve the performance                           •    Security (DHS)
of the National Airspace System. The                             •    Air Traffic Management/Agile
teams are composed of personnel from                                  Air Traffic System (NASA)
FAA, other Federal agencies, and the                             •    Shared Situational Awareness
private sector. Exhibit C provides more                               (DOD)
information on the IPTs.                                         •    Safety (FAA)
                                                                 •    Environmental (FAA)
We believe that a more product-driven                            •    Weather (Commerce/National
focus for IPTs would be an important                                  Oceanic Atmospheric
step forward. In 2005, the National                                   Administration)
Research Council examined JPDO plans            •                     Global Interoperability (FAA)
and was also critical of the IPT structure.
The Council’s report8 found that even though the teams have multi-agency
participation, they are functioning primarily as experts in specific disciplines
rather than as cross-functional, integrated, multidisciplinary teams organized to
deliver specific products. One of the report’s recommendations was that the IPTs
be reduced in number and made more “product driven.”
8
    National Research Council, “Technology Pathways Accessing the Integrated Plan for a NGATS System,” 2005.


Findings
                                                                                                             6


Our work on three IPTs shows that there is considerable coordination but little
alignment of agency budgets to date. Moreover, the IPT leaders have no authority
to commit agency resources to JPDO efforts and often have no products other than
plans. The following illustrates progress and challenges to date with the three
IPTs we examined in detail.

The Weather IPT is led by the National Oceanic Atmospheric Administration
(NOAA), an agency of the Department of Commerce. FAA, NASA, DOD, and
NOAA are all conducting weather research tailored for their specific missions.
Thus far, this team’s efforts have focused on contributions to FAA’s Traffic Flow
Management Program (which helps traffic managers optimize air traffic by
working with airlines). NOAA is also helping the JPDO refine its concept of a
fully automated system. Integrating new, up-to-date weather forecast systems into
planned automation efforts will be challenging.

As we noted in congressional testimony before the House and Senate, the JPDO
had not determined whether or not a considerable amount of applied research and
development conducted by NOAA at the Office of Atmospheric Research and the
National Environmental Satellite, Data, and Information Service could be
leveraged for NGATS initiatives.9 We shared our concerns about taking full
advantage of weather research conducted by others with the JPDO throughout our
review. In commenting on our report, JPDO officials stated that the weather IPT
has done a better job of identifying the research that needs to be done and the task
now focuses on getting it aligned.

The Shared Situational Awareness IPT is led by DOD. All participating agencies
are adopting network-centric systems.10 As noted earlier, FAA is developing its
own network system called SWIM. While there are considerable opportunities for
leveraging net-centric efforts, there is also potential for duplication of effort.
Challenges here focus on taking an approach pioneered by DOD and applying it
specifically to air traffic control to enhance capacity and reduce delays.

An active role by DOD is vital because it is both a provider and a consumer of air
traffic services. Thus far, work in this IPT has focused almost exclusively on
maximizing agency network capabilities in DOD, such as the Global Information
Grid, which is a net-centric communication system DOD is developing for global
use. Moreover, DOD’s real-world experiences and lessons it has learned in
sharing data (from air and ground systems) in actual real-time operations have not
been tapped and will prove invaluable in reducing cost and technical risks in
developing NGATS.

9
     For additional details, see OIG Testimony CC-2006-065, “Perspectives on the Progress and Actions Needed To
     Address the Next Generation Air Transportation System,” July 25, 2006.
10
     A net-centric system uses internet protocols to transfer data over a network.


Findings
                                                                                                               7


Another area where DOD could provide expertise is with sensor fusion11—
integrating information on an aircraft’s position from radar and non-radar sources,
such as satellite-based systems. While fusion could help reduce separation
between aircraft, it will be technically challenging to integrate radar and satellite-
based systems (which have different update rates and levels of accuracy) to
manage traffic in high-volume airspace, particularly in the vicinity of airports.
DOD expertise with target acquisition and sensor fusion for weapons targeting
could prove helpful for the JPDO.

The Air Traffic Management IPT is led by NASA. It is expected to play a key
role by helping to develop the automated systems to boost controller productivity.
The bulk of this work will be funded by NASA, which has conducted the majority
of long-term air traffic management research over the last few years.12 FAA has
neither planned nor budgeted for this type of research. Major challenges focus on
establishing requirements and gaining a full understanding of the risks associated
with developing and acquiring these new software-intensive systems before
making financial commitments. This is important because future automation
efforts will be a major cost driver for NGATS.

JPDO and NASA are working on several complex concepts for new automation
systems (e.g., for monitoring multiple aircraft trajectories, separation minima, and
responding to weather events) and the timing of research efforts. This work will
be funded through NASA efforts on “airspace systems” (with an FY 2007
requested funding level of $120 million). This effort will be a significant for
“mid-to-long-term” development and implementation of automation platforms for
“strategic 4D trajectory management,” i.e., the monitoring and effective safety
management of large numbers of aircraft with respect to time, longitude, latitude,
and altitude.

While FAA and NASA need to reach agreement on how far NASA will develop
cutting edge concepts, it is also true that NASA will need more details about FAA
system requirements with respect to reliability, performance, and failure rates.
Ultimately, FAA and the JPDO must effectively manage the transfer of technology
from NASA, from the research stage, and to system development and full
implementation.




11
     For additional views on “sensor fusion” or “fusion tracking,” see OIG Report Number AV-2005-016, “Terminal
     Modernization: FAA Needs To Address Its Small, Medium, and Large Sites Based Upon Cost, Time, and
     Capability,” November 23, 2004.
12
     For additional details on the FAA and NASA relationship and funding profiles, see OIG Testimony CC-2006-032,
     “Observations on the Progress and Actions Needed To Address the Next Generation Air Transportation System,”
     March 29, 2006.


Findings
                                                                              8


A Range of Actions Are Critical for the JPDO To Make Progress in
Both the Short and Long Term and Make the Transition From
Planning to Implementation
Key questions for FAA and the JPDO are what they can deliver, when it will be
delivered, and how much the next generation system will cost. These questions
are central in the discussion about how to best finance FAA and will shape the
size, requirements, and direction of the capital program for the next decade.

Moving to NGATS is important to meet the demand for air travel, change the way
FAA provides services, and help control operating costs. However, it is also a
high-risk effort given the potential multibillion-dollar investment by FAA and
airspace users. Since we testified in July 2006, FAA has taken some positive
steps. For example, FAA named a new Director for the JPDO and released a draft
concept of operations for NGATS (a vision for how controllers, pilots, and new
systems will work together). We understand that the JPDO is planning to
restructure its IPTs to better facilitate the development of concepts and
technologies and better align NGATS partner agency efforts. Nevertheless, a
number of issues that we raised over the last year remain to be addressed, and
actions need to be taken.


Finalizing Cost Estimates, Quantifying Expected Benefits, and Developing
a Roadmap for Industry
The JPDO’s progress report to Congress was silent on funding requirements and
complex transition issues. Moving to NGATS will require significant investments
from FAA (new ground systems) and airspace users (new avionics). FAA is
conducting workshops with industry to gather input on the potential costs of the
future system.

We have seen some preliminary estimates developed by the Air Traffic
Organization and a working group of FAA’s REDAC, but they have not been
finalized or approved by senior FAA management. These estimates indicate that
an additional $500 million to $1 billion annually will be required between FY
2009 to FY 2012 to accommodate NGATS initiatives. However, there are still
considerable unknowns, and costs will depend on, among other things,
performance requirements for new automation, weather initiatives, and the extent
to which FAA intends to consolidate facilities.

FAA will have to analyze information from the JPDO and industry workshops and
the REDAC working group and provide Congress with expected funding
requirements and the expected timeframe for when funding will be needed. When
transmitting this information to Congress, FAA should provide cost data on three
vectors—research and development needed (including demonstration projects),


Findings
                                                                                   9


adjustments to existing projects, and estimates for implementing NGATS
initiatives. This will give decision makers a clear understanding of NGATS costs.

A key short-term cost factor for NGATS is the        Key NGATS Cost Drivers
level of development funding that will be
required to transition efforts from other         • Development of new systems
agencies (e.g., NASA), successfully implement        and meeting FAA
them in the National Airspace System, and            certification requirements
meet FAA’s safety and certification               • Adjustments to existing
requirements. The REDAC working group is             modernization programs
raising concerns about this in light of NASA’s    •  NGATS implementation
restructuring of its aeronautics research         • Aircraft equipage
portfolio and plans to focus more on
fundamental research. To accommodate changes in NASA investments, the
REDAC working group estimated that approximately $100 million annually for
development funding will be needed to address this technology gap.

The impact of changes in NASA’s aeronautical research and development
priorities will necessitate a better understanding of the level of technical maturity
planned for the NASA research efforts developed for NGATS. FAA is working
with its partner agencies, including NASA, on a memorandum of understanding to
clarify roles and responsibilities with respect to NGATS. This is an important
action that needs to be completed.

We believe that it will be important for FAA and NASA to come to a clear
understanding of the level of technical maturity NASA projects will have. This
has cost and schedule implications for NGATS, particularly new automated
systems for controllers. If NASA is unable to provide projects at a level that FAA
can transition to prototypes, the JPDO and FAA will have to determine how this
R&D will be completed, managed, and paid for.

In addition, it is important to recognize that FAA’s existing investments will
heavily influence NGATS requirements and schedules. In fact, ongoing projects,
like En Route Automation Modernization and FAA Telecommunications
Infrastructure, will form important platforms for JPDO initiatives. Exhibit D
provides details on selected modernization projects that will likely play a key role
in moving toward NGATS. FAA will have to assess how JPDO plans affect
ongoing projects and determine which ones need to be accelerated or re-scoped.

An important theme from the April 2006 JPDO cost workshop is the need for FAA
to clearly define the expected benefits from NGATS initiatives, particularly for
projects that require airspace users to install new avionics, such as ADS-B. As
noted at the industry workshops, airspace users have a much shorter timeline for
the return on investment from new systems than FAA, and incentives (e.g., tax


Findings
                                                                                  10


incentives, financing options, or targeted deployments for users that equip early)
will likely be needed to spur equipage.

At the April 2006 workshop, industry participants asked FAA for a “service
roadmap” that (1) specifies required equipage in specific time increments, (2)
bundles capabilities with clearly defined benefits and needed investments, and (3)
uses a 4-to 5-year equipage cycle that is coordinated with aircraft maintenance
schedules. This service roadmap does not yet exist. It will be important for FAA
to provide industry with this information.


Establishing Clear Lines of Responsibility and Accountability Between
JPDO Plans and ATO Efforts To Better Facilitate the Introduction of New
Capabilities Into the National Airspace System
Establishing effective and clear lines of responsibility and accountability is
important because the JPDO, as currently structured, is a planning and
coordinating organization—not an implementation or program-execution office.
At the April 2006 workshop, industry groups also expressed the need for a much
stronger linkage between JPDO and ATO programs.

Although the JPDO’s progress report discusses new capabilities, such as ADS-B
and SWIM, ATO is responsible for managing the efforts and establishing funding
levels, schedule, and performance parameters. The ADS-B and SWIM projects
are not yet integrated into ongoing communications and automation efforts but
need to be. If the JPDO and ATO are not sufficiently linked and clear lines of
accountability are not established, cost and schedules for NGATS will not be
reliable and expected benefits will be diminished or postponed.

Linking JPDO and ATO efforts is challenging because NGATS projects cut across
ATO’s different lines of business (e.g., terminal and en route) and will require
adjustments to ongoing projects managed by different ATO vice presidents.

For example, SWIM is envisioned as an FAA-wide effort, and planning
documents show that SWIM will interface with at least 12 ongoing projects,
including FTI which is managed by the Vice President for Technical Operations.
Also, SWIM will need to be integrated with ongoing projects to revamp systems
for controlling high-altitude traffic managed by the Vice President for En Route
and Oceanic Services. Projects managed by the Vice President for Terminal
Services (to modernize controller displays used in the vicinity of airports and
weather systems) will also be affected. It will be important to establish clear lines
of accountability for linking JPDO efforts to ATO programs and resolving
differences between the two organizations. This is an important matter that will
require sustained management attention.


Findings
                                                                                                              11


We shared our concerns about effectively linking the JPDO and ATO and
establishing clear lines of accountability with the Chief Operating Officer and the
Acting Director for ATO Planning in the June 2006 timeframe. They recognize
the need for close coordination and are examining ways to better link the two
organizations. One step that is underway is to adjust the Operational Evolution
Plan (the Agency’s capacity blueprint) to reflect JPDO efforts.

Additionally, there have been discussions in the aviation community about the
possible creation of a new ATO Vice President for Transformation. This position
would be responsible for the success of the JPDO and FAA development of
NGATS and would include responsibility for funded F&E programs that are
determined to be enablers, such as SWIM and ADS-B.


Developing and Implementing Mechanisms for Alignment Between
Agencies
As noted earlier, there is considerable coordination among JPDO participating
agencies but little alignment of budgets or plans. There is a need for mechanisms
to help the JPDO align diverse agency efforts over the long term.

The JPDO recognizes that more needs to be done and is working with OMB to
develop an integrated budget document that provides a single business case (a
document similar to the “OMB Exhibit 300”) to make sure efforts are indeed
aligned.13 As part of this, the JPDO, in the FAA FY 2008 budget submission,
provided OMB with an initial list of programs in other agency budgets that it
intends to leverage.

The JPDO’s ongoing efforts to develop
the enterprise architecture, or overall NGATS Enterprise Architecture
blueprint for NGATS, will help in is a blueprint that links FAA’s core
setting goals, supporting decisions, programs and systems to the
adjusting plans, and tracking agency Agency’s mission. This includes
commitments. The architecture will the transition from the “as-is” to
also show requirements from FAA and the “to-be” environment.
the Departments of Defense and
Homeland Security and where various agency efforts fit in NGATS. It will prove
helpful in the future in resolving difficult policy decisions, including who pays for
what elements of the system.

The JPDO is taking an incremental approach to architecture development and
plans to have a definitive version in calendar year 2007. However, considerable

13
     OMB Exhibit 300 was established by OMB as a source of information on which budgetary decisions could be based
     so that they are consistent with Administration and OMB policy and guidance.


Findings
                                                                                                    12


work remains to link current systems with future capabilities and develop
technical requirements, particularly for new concepts for automation.

Until these actions are taken, it will be difficult for the Congress and aviation
stakeholders to determine if the JPDO is leveraging the right research, if funding is
adequate for specific efforts, or how projects will improve the U.S. air
transportation system and at what cost. Therefore, we are recommending that the
JPDO include in its periodic reports to Congress a table of specific research
projects with budget data for FAA developmental efforts and for other agencies it
is leveraging and data showing how that ongoing research is supporting the JPDO.


Developing Approaches for Risk Management and Systems Integration
Given that the transition to NGATS is
                                                   Key NGATS Risks
a    high-risk    effort     potentially
involving billions of dollars, the
                                              • Complex software development
JPDO and FAA need to articulate
                                              • Systems integration
how problems that affected past
                                              • Policy and procedure
modernization efforts will be                   development
mitigated and what specific skill sets        • Certification issues for air and
will be required. Our prior audit               ground systems
work14 on FAA’s modernization                 • Equipage issues for industry
efforts found billions of dollars in
cost overruns and years of schedule delays that were traceable to overly ambitious
plans, complex software development, changing requirements, and poor contract
management. How these risks for NGATS initiatives will be managed was not
addressed in the most recent progress report.

The central issue focuses on what will be done differently from past modernization
efforts with NGATS initiatives (other than conducting demonstration projects) to
ensure success and deliver much needed benefits to FAA and airspace users.
While it is true that FAA has done a better job managing major acquisition
programs in the past several years, developing and implementing NGATS will be
an enormously complex undertaking. As the JPDO notes in its Integrated Plan,15
there has never been a transformation effort similar to this one with as many
stakeholders and as broad in scope.

FAA faces a wide range of risks; such as complex software development, complex
systems integration, and engineering challenges; with NGATS initiatives (such as
SWIM and ADS-B) and existing FAA projects. As previously noted, FAA also

14
     OIG Report Number AV-2005-061, “Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays
     Continue To Stall Air Traffic Modernization,” May 26, 2005.
15
     JPDO “Next Generation Air Transportation System – Integrated Plan,” December 2004.


Findings
                                                                                   13


faces difficult challenges in keeping agency investments synchronized with user
investments. To maintain support for NGATS initiatives, the JPDO and FAA
need to articulate how problems that affected past modernization efforts will be
mitigated and what specific skill sets with respect to software development and
system integration will be required. This will help reduce cost and schedule
problems with NGATS initiatives.

JPDO and FAA officials told us that they intend to rely on demonstration projects
with participating agencies and airspace users to get a better understanding of
potential cost and benefits of NGATS initiatives. We agree but think that
demonstration projects should also be designed to provide insight into the range of
the policies and procedures that must be changed to get the expected benefits.
These demonstration projects should also identify certification issues and safety
requirements needed to move from demonstrating a capability to full-scale
development and implementation.

To help manage the transition to NGATS, FAA is considering whether or not a
lead systems integrator—a private contractor that would help link new and
existing systems and help manage other contractors—will be required. DOD has
relied on this for complex weapon systems. Models for using a lead system
integrator throughout the Government differ with respect to roles and
responsibilities. We note that FAA has used a systems engineering and integration
contractor in the past to help integrate modernization projects, but questions about
the role, responsibility, and expected costs will need to be examined.


Clarifying Approaches for Industry Participation To Prevent Potential
Conflict of Interest
The JPDO established the NGATS Institute in 2005 specifically to allow industry
to participate in shaping NGATS. Currently, industry representatives are
participating in JPDO IPTs. The JPDO’s March 2006 progress report noted that
over 140 industry and private sector participants (from 66 organizations) are
involved in IPT planning efforts.

Industry groups have expressed concern that participation in JPDO activities might
preclude them from bidding on future FAA acquisitions related to NGATS
because it may create an organizational conflict of interest. Generally speaking,
FAA’s Acquisition Management System precludes contractors from competing on
production contracts if the contractor either participated in or materially influenced
the drafting of specifications to be used in future acquisitions for production
contracts or had advance knowledge of the requirements.




Findings
                                                                                  14


FAA is aware of the industry’s concern and is working to ensure that industry
participation does not result in organizational conflicts of interest. JPDO officials
believe—and we agree—that resolving this issue will be essential to get the
desired skill and expertise from industry.

Recently, the JPDO revised the contracting mechanism with the NGATS Institute
to address this issue. Specifically, the JPDO and the Institute have committed to
develop procedures to avoid organizational conflicts of interest. Putting these
procedures in place will help get and sustain the desired expertise from industry
and help prevent problems in the future.

We believe that the JPDO needs to continue to foster awareness of potential
conflicts of interest among IPTs and its contractors to identify information that
might later lead to conflicts of interest. It will be particularly important for FAA
and the JPDO to monitor these matters as the role of the JPDO evolves and
various efforts shift from planning to implementation.


Examining and Overcoming Barriers To Transforming the National
Airspace System That Have Affected Past FAA Programs
Our work on many major acquisitions shows the importance of clearly defined
transition paths, expected costs (for both FAA and airspace users), and benefits
(reduced delays). This is particularly the case for initiatives that require airspace
users to equip with new avionics.

For example, FAA canceled the controller-pilot data-link communications
program because of uncertain benefits, concerns about user equipage, cost growth,
and the impact upon the Agency’s operations account. The inability to
synchronize the data-link program with other modernization efforts, such as the
multibillion-dollar En Route Automation Replacement Program, was also a factor.

Other critical barriers to be overcome include ensuring that new systems are
certified as safe for pilots to use and getting expertise in place at the right time.
These will be critical when ADS-B is being fielded nationwide. For example,
FAA’s multibillion-dollar Wide Area Augmentation System’s (a new satellite
navigation system) problems were directly traceable to problems in testing and
certification.




Findings
                                                                                                           15


The September 20, 2005, REDAC report16 on barriers to transitioning air traffic
management research into operational capability underscores the importance of
certification and safety issues:

         The aviation community continues to be concerned that certification
         requirements can be initially uncertain, may evolve late in the program, and
         take too long to meet. There is a related concern that methods do not exist to
         certify increasingly complex future integrated air-ground systems…. There
         is also concern that if avionics requirements are directly applied to ground
         systems without accounting for the different safety-of-flight considerations,
         system certification may be unnecessarily difficult.

As we reported in congressional testimonies, it will be important for FAA to stay
engaged in the certification process for JPDO initiatives. This will help reduce
risks for cost increases, schedule slips, and diminished resources.


Developing a Strategy for Technology Transfer
Technology transfer—the movement of technology from one organization to
another—is a central issue for the JPDO because the law envisions new
capabilities developed by other Federal agencies (or the private sector) being
transitioned into the National Airspace System. The JPDO will have to pay
greater attention to this matter as it moves forward to reduce development times
with NGATS initiatives.

Our past work shows that FAA has experienced mixed results in transitioning
systems developed by others into the National Airspace System. For example,
FAA ultimately abandoned work on a promising new controller tool developed by
NASA (the Passive Final Approach and Spacing Tool) for sequencing and
assigning runways to aircraft because of complex software development
(including site-specific customization) and cost issues and because the benefits
were unlikely transferable to other airports.

This issue surfaced again in a recent National Research Council report17 that
examined NASA’s aeronautical research efforts. Specifically, the report stated
that:

         …too many NASA aeronautics projects stopped short of full demonstration
         of their technical success and utility to users. Experience shows that a
         potential innovation must be reduced to practice in the complex environment

16
     FAA REDAC report, “Transitioning Air Traffic Management Research into Operational Capabilities,” September
     20, 2005.
17
     National Research Council report, “Aeronautics Innovation, NASA’s Challenges and Opportunities,” 2006.


Findings
                                                                                                                16


         in which it will function before it will be accepted as credible and adopted by
         the target user community.

As we noted in our review of FAA’s Free Flight Phase 1 Program,18 the use of
“technology readiness levels”19 could be useful to help assess maturity of systems
and ease issues associated with the transfer of technology. Stated simply, it is the
problem of efficiently transitioning a new technology from concept to viable
product in the shortest possible time and at the least cost. Both NASA and DOD
have experience with categorizing technology maturity, which could help reduce
cost, schedule, and technical risks with implementing JPDO initiatives. A JPDO
official pointed out that efficient transition of new technologies will also require
close cooperation between researchers and users of existing systems. This could
include the establishment of “transition” or “maturation” teams to create a
developmental pipeline for new systems.


Conducting Sufficient Human Factors Research To Support Anticipated
Changes
The JPDO is planning to make fundamental changes in how the National Airspace
System operates and how controllers manage traffic to accommodate three times
more aircraft in the system. Currently, the union that represents controllers is not
yet participating in JPDO efforts, but it needs to be. Additionally, changes must
address cultural issues within FAA that could potentially inhibit the
implementation of NGATS; this will require doing business differently than the
way it is done with the current system.

History has shown that insufficient attention to human factors can increase the cost
of acquisition and delay much needed benefits. For example, problems in the late
1990s with FAA’s Standard Terminal Automation Replacement System were
directly traceable to not involving users early enough in the process.

The need for focused human factors research extends well beyond the traditional
computer-machine interface (such as new controller displays) and has important
workforce and safety implications. For example, FAA expects the controller’s
role to change from direct, tactical control of aircraft to one of overall traffic
management. There also will be significant human factors concerns for pilots, as
they will be expected to rely more on data-link communications.

18
     OIG Report Number AV-2002-067, “Free Flight Phase 1 Technologies: Progress to Date and Future Challenges,”
     December 14, 2001.
19
     Technology Readiness Levels – DOD and NASA use a nine-point scale to differentiate the maturity of technologies
     Level 1 (Basic Principles Observed and Reported) to Level 9 (Actual System, Proven Through Successful Mission
     Operations). Source: GAO Report GAO/NSIAD-99-162, “Better Practices, Better Management of Technology
     Development Can Improve Weapon System Outcomes,” July 29, 1999 and OIG Report Number AV-2002-067,
     “Free Flight Phase 1 Technologies: Progress to Date and Future Challenges,” December 14, 2001.


Findings
                                                                                 17


Key issues for human factors research focus on what can reasonably be expected
of new automation systems and cockpit displays. The following issues identified
in FAA’s concept of operations for NGATS will require additional human factors
work:

   • How will increased automation and new technologies affect flight crew
     workload?
   • What effect do the changing roles and responsibilities have on safety?
   • What alerts and information displays does a pilot need to safely oversee
     conflict detection and resolution when no one on the ground is responsible
     for tactical separation?
   • If automation fails, what is the back-up plan in terms of people, procedures,
     and automation?

FAA will have to prioritize its ongoing human factors work and make sure it is
targeted to address critical issues affecting controllers and pilots. This will also
require close cooperation with NASA, which also conducts human factors
research. We agree with the JPDO that simulations and modeling will be
important to gain a full understanding of the human factors issues and
corresponding requirements for NGATS initiatives.


RECOMMENDATIONS
The transition to NGATS is an enormously complex undertaking that will span
years and require considerable investments from both the Government and
airspace users. We shared our views with the JPDO and FAA on the range of
actions needed to shift from a research agenda to one of implementation, and
actions are underway to address our concerns about better linking JPDO and ATO
efforts.

To help better manage NGATS efforts, we recommend that the Federal Aviation
Administrator:

   1. Report NGATS cost data along three vectors—developmental efforts,
      adjustments to existing programs, and NGATS implementation—when
      reporting NGATS financial requirements to Congress and stakeholders.

   2. Determine the level of technical maturity of NASA’s research projects
      developed for NGATS initiatives. If NASA will be unable to provide
      research projects at a level that FAA can quickly move to prototype
      development, then FAA will need to develop contingency plans for how
      this research and development will be conducted, managed, and paid for.

Recommendations
                                                                              18


  3. Review existing ongoing modernization programs to determine if they are
     still needed and, if so, what adjustments in cost, schedule, and performance
     parameters will be needed.

  4. Include information in the annual JPDO progress report on specific
     research projects with budget data for FAA developmental efforts as well
     as budget data of other agencies that are being leveraged and specify how
     the ongoing research is supporting the JPDO.

  5. Determine what skill sets and expertise, with respect to software
     development and system integration, will be required by the ATO and
     JPDO—and how they will be obtained—to manage and execute NGATS
     initiatives.

  6. In planned NGATS demonstration projects, develop sufficient data to
     establish a path for certifying new systems and identify the full range of
     adjustments to policies and procedures needed to get benefits.

  7. Continue to develop and refine procedures that address conflict of interest
     issues with JPDO initiatives and conduct annual reviews of the matter as
     the role of the JPDO evolves from planning to implementation.

  8. Use technology readiness levels in assessing the maturity of research
     conducted at other agencies to help speed technology transfer and the
     introduction of new capabilities into the National Airspace System.

  9. Fund targeted human factors research to ensure that the changing roles of
     controllers and pilots envisioned by the JPDO can safely be accommodated.
     This will require a re-prioritization of ongoing efforts at FAA and close
     cooperation with NASA, which also conducts human factors research.




Recommendations
                                                                                19




MANAGEMENT COMMENTS AND OIG RESPONSE
On December 15, 2006, we provided FAA with a draft copy of this report. On
February 9, 2007, FAA gave us its formal response, which is included in its
entirety in the Appendix.      FAA concurred with the following eight
recommendations, and we consider them resolved:

   • Report NGATS cost data and development efforts to Congress and
     stakeholders along three vectors,
   • Determine the level of technical maturity of NASA’s research and
     development projects related to NGATS,
   • Review ongoing modernization efforts and determine what adjustments
     must be made,
   • Report in JPDO’s annual progress report research and budget data of FAA
     and partner Agencies that are being leveraged for use in NGATS,
   • Determine critical skill sets and expertise that will be required with respect
     to software development and system integration,
   • Develop NGATS demonstration projects that will develop sufficient data to
     establish pathways to certification,
   • Continue to develop and refine procedures to address conflicts of interest
     issues with JPDO initiatives,
   • Fund human factors research that will address changing roles of pilots and
     controllers.

FAA partially concurred with Recommendation 8 to use technology readiness
levels in assessing the technical maturity of research and development projects
received from partner agencies. FAA points out that the use of technology
readiness levels alone does not facilitate successful technology transfer. We agree
and point out in our report that efficient transition of technology also requires
close cooperation between researchers and users of existing systems. In its
response, FAA points to a number of steps, such as further developing the concept
of operations and the NGATS R&D plan and using the Agency’s Operational
Evolution Plan to track technology maturity. We consider FAA’s alternative
actions responsive to the intent of this recommendation.




Management Comments and OIG Response
                                                                               20




EXHIBIT A. KEY RESEARCH EFFORTS NEEDED FOR NGATS
Based upon our work and understanding of the JPDO interim capabilities, the
concept of operations, and the REDAC report, the following are examples of
several key research and development activities that are underway or planned by
NASA and others that will be essential in realizing the expected capacity benefits
from NGATS.

   • Automation Improvements. Research is needed to develop
     automation that performs routine separation and traffic flow
     management functions with almost flawless performance. It will be
     important to determine the optimum roles for controllers and pilots
     in a highly automated system that shifts greater responsibility to the
     pilot.
   • Separation Standards for an Automated Environment.
     Research is needed to assess current separation standards, which
     have created a remarkably safe system. Work is required to
     determine what is achievable and how mishaps can be
     accommodated.
   • Cockpit Displays. Research is needed for a cockpit-based display
     that will enable pilots to self-separate.
   • Weather Integration Into Automation. Research is needed to
     design and develop systems that integrate up-to-date weather
     information into automation systems that identify hazardous
     weather (e.g., thunderstorms, in-flight icing, and turbulence) for all
     phases of flight.

Overall, FAA’s concept of operations for NGATS has identified over 70 research
or policy areas that require further investigation. These research areas will be
needed regardless of the technology ultimately selected. Some research on these
issues is planned or has been done in the past. To see benefits in the 2012
timeframe, as projected by the JPDO, FAA officials have told us that work must
begin now, given the lag time between development and actual deployment. It is
not yet clear who or what agency will do this research. To be effective, the
research must also focus on policies, procedures, and methods for certifying
systems as safe for use.




Exhibit A. Key Research Efforts Needed for NGATS
                                                                            21




EXHIBIT B. POTENTIAL AGENCY CONTRIBUTIONS
Agencies participating in the JPDO are conducting a wide range of research for
their specific missions. We note that only some of the ongoing research will be
applicable to the JPDO’s efforts.

    Table 2. Federal Agencies and Their Key Leverage Areas
     Agency                          Key Area of Leverage
 Department of   DOD has an extensive and diverse Research and
 Defense (DOD)   Development (R&D) base, including research in new
                 aircraft, composites, imaging systems, and data exchange
                 systems for all services. DOD has requested $73 billion
                 overall for R&D in FY 2007. The JPDO is particularly
                 interested in DOD’s broadband communication networks,
                 such as the Global Information Grid. DOD planned
                 upgrades to the Global Positioning System Constellation
                 will be critical to civil aviation.
 Department of   Commerce is requesting $1.1 billion for research in
 Commerce/       FY 2007. NOAA is a part of Commerce and is responsible
 National        for the National Weather Service; the National
 Oceanic and     Environmental Satellite, Data, and Information Service;
 Atmospheric     and Oceanic and Atmospheric Research. NOAA requested
 Administration $533 million in FY 2007 for R&D. The JPDO is seeking
 (NOAA)          from NOAA probability weighted forecast capabilities, a
                 national uniform weather database of forecasts and
                 observations, and transparent automatic adjusted traffic
                 management for weather.
 National        For years, NASA has conducted the majority of long-term
 Aeronautics and Air Traffic Management research, including automated
 Space           controller tools and human factors work. NASA has
 Administration requested $724 million for aeronautical R&D for FY 2007.
 (NASA)          The JPDO is looking to NASA to develop automated
                 aircraft metering and sequencing and dynamic airspace
                 reconfiguration.
 Department of   DHS contributes expertise in the areas of security and net-
 Homeland        centric initiatives. The Agency has requested $1 billion in
 Security (DHS)  FY 2007 for Science and Technology R&D. FAA is
                 looking to DHS to develop automated passenger and cargo
                 screening, hardened aircraft security, and flight control
                 overrides.



Exhibit B. Potential Agency Contributions
                                                                               22




EXHIBIT C. INTEGRATED PRODUCT TEAMS AND THEIR LEAD
AGENCIES
Integrated Product Teams are multi-agency teams that are defining the specific
concepts and capabilities and coordinating the actions necessary to make the
transformation possible in each of the eight strategies of the NGATS Integrated
Plan. We understand that the JPDO will restructure its IPTs sometime in 2007.
The following represents the structure at the IPTs at the time of our review.

      1. Develop Airport Infrastructure To Meet the Future Demand – FAA

      2. Establish an Effective Security System Without Limiting Mobility or
         Civil Liberties – DHS

      3. Establish an Agile Air Traffic System – NASA

      4. Establish User-Specific Situational Awareness – DOD

      5. Establish a Comprehensive Proactive Safety Management Approach –
         FAA

      6. Develop Environmental Protection That Allows Sustained Aviation
         Growth – FAA

      7. Develop a System-Wide Capability To Reduce Weather Impacts –
         Commerce/NOAA

      8. Harmonize Equipage and Operations Globally – FAA




Exhibit C. Integrated Product Teams and Their Lead Agencies
                                                                                     23




EXHIBIT D. KEY PLATFORMS

                    Table 3. Issues With FAA Systems
          System                                Status and Key Issues
 Terminal Modernization:         FAA has struggled with how to complete terminal
 Standard Terminal               modernization. STARS, which so far has cost of
 Automation Replacement          $1.3 billion for only 47 sites, was envisioned as the
 System (STARS),                 centerpiece of terminal modernization. Because of
 Common Automated                technical problems and schedule delays with STARS,
 Radar Terminal System           FAA decided to deploy another system, Common
 (Common ARTS):                  ARTS, as an interim solution at over 140 facilities in
 Controller work-stations that   several configurations. FAA is rethinking its approach
 process surveillance data       to terminal modernization and recently decided to field
 and display it on-screen to     STARS to only five additional sites. A decision
 manage air traffic in the       affecting the remaining 100-plus sites has been
 terminal environment.           postponed for over a year. FAA needs to resolve how it
                                 will complete terminal modernization and what
                                 additional capabilities will be needed as it works with
                                 the JPDO.
 En Route Automation             With an estimated cost of $2.1 billion, ERAM is one of
 Modernization (ERAM):           the largest and most complex acquisitions in FAA’s
 Replaces the Host computer      modernization portfolio. Progress is being made with
 hardware and software           the first ERAM deliverable—a back-up system for the
 (including the Host backup      Host computer. However, the bulk of the work focuses
 system) and associated          on developing the first major ERAM software release,
 support infrastructure at       which involves developing over 1 million lines of code.
 20 En Route Centers.            A number of new capabilities (e.g., dynamic airspace
                                 management and data link) depend on future
                                 enhancements to ERAM that have yet to be defined or
                                 priced.




Exhibit D. Key Platforms
                                                                                     24




         System                                Status and Key Issues
 FAA Telecommunications FTI is FAA’s effort to transition from multiple telecom-
 Infrastructure (FTI) is       munication networks to a single new network to reduce
 designed to replace existing operating costs. FTI is expected to replace about
 telecommunications            20,000 existing telecommunications services and circuits
 networks with one new         at more than 4,000 facilities. FAA re-baselined FTI in
 network through a phased      August 2006, increasing Agency telecommunications
 process. A single provider lifecycle costs from $3.2 billion to $3.3 billion. In
 is responsible for acquiring, addition, FAA has added another year to the FTI schedule
 operating, and maintaining and plans to complete the effort in December 2008. This
 the new                       delay occurred because FAA did not have a realistic
 telecommunications            master schedule or effective transition plan identifying
 infrastructure.               when each site and service would be accepted, when
                               services would be cut over to FTI, and when existing
                               services would be disconnected. By the end of FY 2006,
                               FTI equipment was installed at more than 1,000 sites, and
                               about 35 percent of 20,000 planned FTI services were
                               operational, leaving a vast amount of existing equipment
                               still being sustained. As a result, expected FTI cost
                               reduction benefits are eroding. FAA continues to face a
                               number of risks with FTI, including complex transition
                               issues. We are currently reviewing progress with FTI and
                               will issue a report later this year.
 Traffic Flow                  Traffic Flow Management Infrastructure products and
 Management (TFM) is an services are designed to support the Traffic Management
 FAA initiative to             Specialists and Traffic Management Coordinators in
 modernize the hardware        optimizing air traffic flow across the National Airspace
 and software used to          System. The specialists and coordinators analyze, plan,
 manage the flow of air        and coordinate air traffic flow through continuous
 traffic.                      coordination with the airlines and the use of surveillance
                               sources, weather, automation, and display subsystems.




Exhibit D. Key Platforms
                                                                                 25




EXHIBIT E. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairman and Ranking Member of the House Aviation
Subcommittee, we initiated a review of the newly established JPDO to assess
progress to date. As agreed with the Subcommittee, we focused this report on (1)
accessing JPDO’s progress to date in aligning diverse agency budgets and what
barriers remain to be overcome and (2) determining actions that will help the
JPDO move from planning to implementation.

To get an understanding of the challenges FAA faces with NGATS, we gathered
and reviewed budgetary documentation for key projects, including the top
10 largest ongoing acquisitions in terms of dollars. We also examined cost and
schedule reports for key projects, such as FTI, and their funding profiles contained
in FAA’s Capital Investment Plan. In addition, we examined the progress and
issues associated with SWIM and ADS-B—two key projects highlighted in the
JPDO’s recent progress report to Congress. To understand the potential affects to
ongoing projects, we interviewed key JPDO personnel responsible for developing
NGATS and senior FAA management, including the Director of FAA’s Capital
Expenditures Programs.

To determine progress to date with coordination and alignment of JPDO partner
agencies, we collected information from the eight IPTs with respect to plans and
what ongoing research that could be leveraged by the JPDO. We focused the
majority of our work on the IPTs that relate directly to air traffic management.
Additionally, we interviewed NASA’s Associate Administrator for Aeronautical
Research and members of her staff and FAA budget office staff. We gathered
applicable program documentation from FAA and reviewed relevant Agency
documents, such as the 2005 JPDO Progress Report to Congress.

To determine the range of actions needed to shift from planning to
implementation, we interviewed officials from FAA, ATO, NASA, JPDO, and the
aviation industry. Also, we reviewed a recent report by the National Research
Council that highlighted the need for changes with the JPDO’s IPTs. In addition,
we attended the April 2006 JPDO/Industry Workshop on NGATS costs, as well as
an expert panel sponsored by the U.S. Government Accountability Office and
facilitated by the National Academy of Sciences.

We performed our survey and verification work from July 2005 through
September 2006. We performed our work in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States.




Exhibit E. Objectives, Scope, and Methodology
                                                                                      26




APPENDIX. MANAGEMENT COMMENTS



                   Federal Aviation
                   Administration
Memorandum
Date:                      (February 8, 2007)
To:           David A. Dobbs, Principal Assistant Inspector General for Auditing and
              Evaluation
From:         Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:      OIG Draft Report: Joint Planning and Development Office: Actions
              Needed to Reduce Risk with the Next Generation (NextGen) Air
              Transportation System


In the subject draft report dated December 15, 2006, the Federal Aviation Administration
(FAA) was requested to provide written comments to be incorporated into your final
report.

The following is FAA’s response to each of your recommendations.

Recommendation 1: Report NGATS cost data along three vectors—developmental
efforts, adjustments to existing programs, and NGATS implementation when reporting
NGATS financial requirements to Congress and stakeholders.
FAA Response: Concur. In early 2007, Congress will receive the FAA's
reauthorization proposal, which will include budget projections consistent with the
reauthorization period. The projections include base FAA programs and incremental
NextGen funding for RE&D and ATO Capital appropriations.

In February, subject to OMB approval, Congress will receive the JPDO Annual Progress
Report, which will include initial 5-year, 10-year, and end state cost projections for
NextGen.
JPDO will be building a comprehensive cost estimate throughout this fiscal year. The
results will support the FY 2009 budget process and associated out-year planning.



Appendix. Management Comments
                                                                                      27


Recommendation 2: Determine the level of technical maturity of NASA’s research
projects developed for NGATS initiatives. If NASA will be unable to provide research
projects at a level that FAA can quickly move to prototype development, then FAA will
need to develop contingency plans for how this research and development will be
conducted, managed, and paid for.

FAA Response: Concur. By August 31, JPDO will develop an R&D Plan that identifies
responsibilities of JPDO member agencies for the NextGen pre-implementation work
leading to agency implementation decisions. The pre-implementation work includes
foundational research, applications research, policy and benefits analyses, and system
engineering.

Recommendation 3: Review existing ongoing modernization programs to determine if
they are still needed and, if so, what adjustments in cost, schedule, and performance
parameters will be needed.

FAA Response: Concur. As part of its resource planning activities with the partner
agencies, and based on the enterprise architecture roadmap, JPDO will identify those
capital programs that are still needed to support NextGen and what adjustments will be
needed. The architecture roadmap will also inform FAA funding priorities by indicating
how long legacy technologies will be needed before new technologies/capabilities are
transitioned into the NAS.

Recommendation 4: Include information in the annual JPDO progress report on specific
research projects with budget data for FAA developmental efforts as well as budget data
of other agencies that are being leveraged and specify how the ongoing research is
supporting the JPDO.

FAA Response: Concur. The Progress Report will contain a high level description of
the specific research projects in the partner agencies and how they contribute to NextGen.
More detailed descriptions of the program elements will be available in the budget white
sheets that accompany the President’s FY 2008 budget. For the FY 2009 budget
formulation cycle, this information will be formalized in the NextGen Exhibit 300 and
the NextGen R&D Plan, which will be completed in time for submission with the agency
budgets.

Recommendation 5: Determine what skill sets and expertise, with respect to software
development and system integration, will be required by the ATO and JPDO—and how
they will be obtained—to manage and execute NGATS initiatives.

FAA Response: Concur. ATO will work with the Chairman of the Research,
Engineering and Development Advisory Committee National Airspace System
Subcommittee to form a panel of external government and industry experts to conduct an
independent assessment of the ATO’s ability to successfully integrate the operational
improvements required to transition to NextGen. Recommendations will be sought as to
how best achieve NextGen implementation. This work will be completed by the end of
September.



Appendix. Management Comments
                                                                                          28


Recommendation 6: In planned NGATS demonstration projects, develop sufficient data
to establish a path for certifying new systems and identify the full range of adjustments to
policies and procedures needed to get benefits.

FAA Response: Concur. FAA has redefined the successful Operational Evolution
Partnership (OEP) to serve as the framework that will guide, monitor and report the
transition to NextGen. The OEP process now spans all phases of NextGen development
and establishes the path from concept validation, to applications research, through system
engineering, to acquisition and implementation. Participation by all relevant FAA
executives ensures that the full range of changes (technology, training, policy,
certification, and procedures) come together at the right time to achieve operational
benefits. The next publication date of the annual OEP plan is scheduled for June.

Recommendation 7: Continue to develop and refine procedures that address conflict of
interest issues with JPDO initiatives and conduct annual reviews of the matter as the role
of the JPDO evolves from planning to implementation.

FAA Response: Concur. On the basis of the work planned for this fiscal year, JPDO
will consult with FAA’s legal counsel and develop and deliver appropriate awareness
training for private sector participants in JPDO activities. The training for this fiscal year
will be completed by March 30. JPDO will conduct similar assessments and training
each year.

Recommendation 8: Use technology readiness levels in assessing the maturity of
research conducted at other agencies to help speed technology transfer and the
introduction of new capabilities into the National Airspace System.

FAA Response: Partially concur. Use of technology readiness levels does not by itself
facilitate technology transition. However, we agree that a smooth technology maturation
pipeline is needed to speed introduction of NextGen capabilities. Several factors and
actions should help to assure that smooth pipeline: (1) the NextGen Operational Concept
provides the operational “pull” that is often missing in technology maturation; (2) the
NextGen R&D Plan will identify responsibilities of JPDO member agencies for the
NextGen technology requirements; and (3) at the FAA, use of the OEP to plan and track
technology maturation provides the leadership that is critical to successful tech transfer.

Recommendation 9: Fund targeted human factors research to ensure that the changing
roles of controllers and pilots envisioned by the JPDO can safely be accommodated. This
will require a re-prioritization of ongoing efforts at FAA and close cooperation with
NASA, which also conducts human factors research.

FAA Response: Concur. By August 31, JPDO will develop an R&D Plan that will
identify responsibilities of JPDO member agencies for the NextGen technology
requirements, including human factors research.




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
  Joint Planning and Development Office: Actions Needed To Reduce Risks
            With the New Generation Air Transportation System
                         Section 508 Compliant Presentation


Figure 1. United States Commercial Air Carriers System Enplanements,
Fiscal Years 2005 to 2007 (Passenger figures are in millions)
Fiscal Year    Mainline Passengers Regional Passengers
   2005                      587.3               151.4
   2006                      584.7               155.9
   2007                        604               165.1
   2008                      621.8               171.8
   2009                      640.1               179.6
   2010                      659.6               187.6
   2011                      679.6               195.9
   2012                      700.8               204.4
   2013                      722.6               213.1
   2014                      745.6               222.1
   2015                      769.4               231.3
   2016                      794.5               240.8
   2017                      821.1               250.4
Source: Federal Aviation Administration Forecast 2005-2017



Figure 2. The Federal Aviation Administration’s Fiscal Year 2007 Facilities
and Equipment Budget Request
             Category                  Amount Requested         Percentage of Total Request
Personnel and Related Expenses              $447,900,000                          18 percent
Mission Support                             $282,000,000                          11 percent
Facilities                                  $402,000,000                          16 percent
Air Traffic Control Modernization         $1,370,000,000                          55 percent
Source: The Federal Aviation Administration’s Fiscal Year 2007 Budget Request
